NATIONAL CREDIT UNION ADMINISTRATION

       OFFICE OF INSPECTOR GENERAL



             RESULTS ACT: Goal 1
       Promote a System of Financially Sound
          Federally Insured Credit Unions

               OIG-02-08      July 12, 2002




                     H. Frank Thomas
                     Inspector General




Released By:                             Auditor in Charge:


William A. DeSarno                       Dwight B. Engelrup
Deputy Inspector General                 Senior Auditor
                              TABLE OF CONTENTS


                                  Description                       Page #

Executive Summary                                                     1

Background                                                            3
      Government Performance Results Act (Results Act)                3
      Review Plan                                                     3
      Verification, Validation, and Internal Controls                 5
      Strategy Changes                                                6

Planning and Reporting on Goal Performance                            7
       Strategic Planning                                             7
       Annual Performance Plan                                        9
       Operating Plans                                               13
       NCUA Progress in Meeting Goals                                15
       2000 Performance Report to OMB                                18

Call Report Process – Natural Person Credit Unions                   20
       Natural Person Credit Union Call Report (5300 report)         20

Attachment 1 – Call Report Process (Natural Person Credit Unions)    23
                                   EXECUTIVE SUMMARY


The Government Performance Results Act of 1993 (Results Act) seeks to improve the effectiveness,
efficiency, and accountability of federal programs. The Results Act requires government agencies to
develop strategic plans, annual performance plans, and performance reports. The National Credit Union
Administration (NCUA) performance plan must also include objective, quantifiable, and measurable
performance goals.

The NCUA strategic plan and annual performance plan identifies five strategic goals. The first goal
states NCUA will “Promote a system of financially sound, well-managed, federally insured credit
unions able to withstand economic volatility.” For the year 2001, NCUA budgeted 70 percent of staff
positions (692) and dollars ($92 million) for the achievement of Goal 1. Because of the amount of
resources devoted to Goal 1, we selected that goal for our annual review.

NCUA identified three outcome goals for strategic Goal 1 for 2000, 2001, and 2002, namely: Ensure
federally insured credit unions are financially healthy; Ensure credit union management is aware of and
prepared to meet potential future financial challenges; and Maintain the healthy performance of the
National Credit Union Share Insurance Fund (NCUSIF). The purpose of our review was to evaluate
NCUA's performance in meeting and reporting on Strategic Goal 1 for 2000 and 2001. Our review
emphasis was verification and validation of goal performance information reported to the NCUA Board
and outside the agency. Our review scope covered natural person credit unions and did not include
corporate credit unions serving the natural person credit unions. The review did not address the
question of whether the measures selected were appropriate.

Our primary review procedures included reviewing Results Act requirements as appropriate for NCUA;
reviewing NCUA plans and guidance for Goal 1; interviewing NCUA staff; and reviewing report
documentation. Primary agency offices for the review included the Office of Executive Director (OED),
the Office of Strategic Program Support and Planning (OSPSP), Office of Examination and Insurance
(E&I), the Office of Chief Financial Officer (OCFO), and a selected regional office. Our review was
performed during March through May 2002.

Timely information is critical to ensure appropriate regulatory action. Previously we had found that all
other federal financial regulators require quarterly call report information from their insured institutions.
Credit union call reports are available semi-annually from all natural person credit unions with assets less
than $50 million and quarterly from credit unions with assets greater than $50 million. This has meant
that NCUA has had complete and consistent information for all credit unions twice a year. The NCUA
Board, recognizing this weakness, has taken action to require quarterly reports from all federally insured
credit unions beginning with the third quarter 2002. The quarterly reporting of financial and other
information from credit unions will result in the NCUA receiving information for all credit unions in a
more timely manner.



                                                   1
Overall, we concluded that planning, operating plans, and progress in achieving Goal 1 are appropriate.
We concluded that the call report system, and the methods used by the agency in verifying and
validating the call report information for the identified goals, is appropriate. Our report provides four
recommendations for consideration and system improvement.




                                                  2
                                          BACKGROUND


                                      The Government Performance Results Act of 1993 (Results Act)
    Government Performance
                                      seeks to improve the effectiveness, efficiency, and accountability of
    Results Act (Results Act)
                                      federal programs by requiring federal agencies to set goals for
program performance and to report on annual performance compared with the goals. The Results Act
requires government agencies to develop strategic plans, annual performance plans, and performance
reports. The performance plan must be consistent with the strategic plan and cover each program
activity set forth in the budget. In addition, the performance plan must also include objective,
quantifiable, and measurable performance goals. Performance plans are intended to indicate annual
steps taken by agencies to meet their strategic mission.

The Results Act requires an annual report to the President and Congress. The report should:
•    Include performance indicators along with the actual program performance achieved;

•    Described program results in terms of whether the performance failed to meet the criteria of a
     minimally effective or successful program;

•    Review the success of achieving the performance goals of the fiscal year;

•    Evaluate the performance plan for the current fiscal year relative to the performance achieved
     toward the performance goals in the fiscal year covered by the report;

•    Explain and describe, where a performance goal has not been met;

•    Describe the use and assess the effectiveness in achieving performance goals of any waiver;

•    Include the summary findings of those program evaluations completed during the fiscal year covered
     by the report; and

•    Indicate the functions and activities … to be inherently governmental functions.



                     NCUA has identified five strategic goals. The agency expends seventy percent of
    Review Plan
                     budget dollars and staff on Goal 1 – To “Promote a system of financially sound,
well-managed, federally insured credit unions able to withstand economic volatility.” As a result, we
selected Goal 1 for our second Results Act review. The review emphasis was verification and
validation of goal performance information reported to the NCUA Board and outside the agency for
2000 and 2001, because this data represents actual results of operations, and should have supporting
data.




                                                   3
For 2000, 2001, and 2002 the agency identified three outcome goals for strategic goal 1 namely: Goal
1.1 Ensure federally insured credit unions are financially healthy; Goal 1.2 Ensure credit union
management is aware of and is planning effectively to meet current and potential future financial
challenges; and Goal 1.3 Maintain the healthy performance of the National Credit Union Share
Insurance Fund (NCUSIF).

The following table identifies the Outcome Goals and reported goal achievement progress:


NCUA Strategic Goal 1 Identified NCUA Outcome Goals:
    2000/2001/2002 Annual Plan            2000          2001                            2002
            Outcome Goal:             Performance:  Performance:                    Identified:
1.1 Credit unions financially healthy Met          Met                         Similar to 2000/2001
1.2 Credit union management           Met          Met                         Similar to 2000/2001
1.3 Healthy NCUSIF                    Met          Met                         Similar to 2000/2001




Review Objective
Our review objective was to evaluate NCUA’s performance in meeting and reporting on Strategic Goal
1 for 2000 and 2001: Promote a system of financially sound, well-managed, federally insured credit
unions able to withstand economic volatility.


Review Scope
The review scope focused on:
• Limited legal and regulation review to Government Performance Results Act (Results Act);
• NCUA 2000-2005 strategic plan;
• NCUA 2000, 2001, and 2002 annual plans;
• NCUA 2000, 2001, and 2002 reporting and measurement mechanisms; and
• NCUA 2000 performance report to the Office of Management and Budget (OMB).
• We did not review corporate credit union information during this review.


Review Methodology
Our review methodology included:
• An identification of Results Act requirements regarding measurements; and data validation and
   verification.

•   A review of NCUA’s guidance; strategic plan; annual plans; and annual report to OMB to:
           1. Determine how goal information was incorporated into agency plans;

                                                4
             2. Determine how measurements are identified and their validity;
             3. Determine how the identified measurements measure the goal 1;
             4. Determine how agency verifies and validates goal information (Results Act, Sec. 4, (b),
                a); and
             5. Determine validity of measurement information reported outside the agency.

•    Discussions with NCUA staff and a review of documentation to determine and evaluate the
     relationship of review information to strategic and annual plans; accomplishment of goal 1; and
     annual performance reporting.




                                                             Verification, validation, and internal controls
    Verification, Validation, and Internal Controls
                                                             for data information are primarily the
responsibility of regional staff and the Office of Examination and Insurance (E&I). Measurement data is
supported through the use of credit union surveys and call report data. In general, the examiner checks
the data for accuracy and validity. The supervisory examiner reviews work performed by the examiner.
The regional and central office analysts review examination and measurement data for reasonableness.
Currently survey information comes from the examination survey, which is issued to each credit union at
the end of the examination. The examiner has no contact with the survey and the credit union is not
identified in the response to enhance valid responses.

Examiners review credit union call report data (financial and other data submitted by the credit union to
NCUA on at least a semi-annual basis) prior to uploading it to the NCUA database. Also, during
examinations examiners verify and validate call report and other information. During credit union
insurance reviews examiners have a chance to verify and validate call report and other information. In at
least one region, as of June 30th and December 31st, 2001, the Division of Supervision prepared an
analysis of information from database for credit unions with capital less than 10 percent. The report was
run recently this year. The analysis emphasis is on adverse trends and declining capital. Examiners can
use the regional office capital trends analysis during their work with credit unions. Regions utilize
examiners to review and verify call report information at input and during examinations.

Credit unions are required by NCUA to prepare periodic financial statements in accordance with
Generally Accepted Accounting Principles (GAAP). GAAP provides a uniform system to validate
financial information by external auditors and examiners with the accounting records. Credit unions are
required to prepare and submit financial and other data reports (call reports) to NCUA at least on a
semi-annual basis. Verification and validation of call report information is performed at a number of
levels from the initial submission of data to the central office at NCUA. The examiner is the key NCUA
person to ensure validity and consistency in the call report information. In addition, E&I performs
validity checks on submitted call report information via software accounting edits (such as assets must
equal liabilities), queries and reports as a part of internal controls to ensure validity and consistency of
data. Regional offices and E&I perform queries on data after 5300s are submitted to test the data for
consistency and reasonableness.

                                                   5
During examinations at credit unions, examiners review call report information submitted by the credit
unions. Corrected call reports are submitted by credit unions when errors are discovered and
corrections are necessary.




                          The agency has conducted more than 200 meetings involving stakeholders
  Strategy Changes        and staff to receive input for strategic planning. Information developed has
been provided to the NCUA Strategic Management Council (SMC) to assist them in planning for the
agency. The SMC and an information technology committee are composed of senior agency staff to
develop future planning for NCUA. The committees meet every other month to develop plans for the
agency.

At the time of our review the DSP was finalizing the 2003-2008 NCUA Strategic Plan and preparing to
release it for comment. The proposed strategic plan will include all five of the current strategic goals.
The proposed Goal 1 is similar to the 2000-2005 Goal 1. The proposed Strategic goal 1 addresses the
financial health of credit unions. NCUA believes the measures of this financial health should be flexible
enough to allow innovation and sound business decisions by the credit unions. The measures should
also be restrictive enough that they prevent unnecessary risks. It is the opinion of the agency that goal 1
currently does this and as a result, it has not been changed. Should emerging economic trends and/or
credit union business practices indicate that change is necessary, the agency indicated, a fully
coordinated agency change of the measure and target would be submitted to the NCUA Board for
approval. However, the goal would remain the same, as it has been developed to be sufficiently broad
as to not require change. We found that the proposed Goal 1 outcome goals emphasize timely action
and empowerment to credit unions. Agency strategies have evolved to recognize goal accomplishment,
communication, and an emphasis on risk containment such as implementing the new risk-based
examination program to be initiated during 2002.




                                                  6
         PLANNING AND REPORTING ON GOAL PERFORMANCE


                            The Results Act (Section 3 – Strategic Planning) requires specific
  Strategic Planning
                            information to be in the agency strategic plan including the following:

    •   Mission statement
    •   General goals and objectives
    •   Description of how the goals and objectives are to be achieved
    •   Description of how performance goals in plan related to general goals and objectives in strategic
        plan
    •   Key factors external to the agency that could significantly affect achievement of goals and
        objectives
    •   Description of program evaluations used in establishing/revising general goals and objectives

We reviewed the current NCUA Strategic Plan 2000-2005. We found that basically all of the
requirements for strategic planning were included in the plan for Goal 1.

Strategic Planning

NCUA works to ensure the mandates of the Results Act are included in the agency Strategic and
Annual Performance Plans/Reports. The Director of the Division of Strategic Planning (DSP) is
charged with ensuring that the agency is in compliance with the Results Act. The DSP, now a part of
OSPSP, maintains a file of all OMB and OPM bulletins that are released regarding changes in Results
Act requirements. The bulletins are reviewed for applicability and where appropriate, changes are
incorporated into NCUA Annual Performance Plans when developed. DSP also attends the FIRREA
GPRA Working Group Meetings and the OPM GPRA Working Group Meetings to ensure currency
and compliance as well as learn from experiences of other agencies. NCUA’s Strategic Plan is updated
during the development of the Annual Performance Plan under the section “Strategic Plan 2000-2005
changes.” NCUA Strategic Plan 2003-2008 is now under development and is being developed using
the current OMB Circular A-11 to ensure full compliance with GPRA requirements. OSPSP fully
coordinates the development of NCUA Strategic and Annual Performance Plans and Reports with the
NCUA assigned OMB auditor. Additionally, NCUA has the Mercatus Center at George Mason
University, which reviews federal agency Annual Performance Plans and Reports of the 28 largest
agencies for the GAO, review NCUA annual plans and reports.

Presently the staff for the Division of Strategic Planning (DSP) consists of the director. A Planning
Analyst position will be filled in the near future. Analytical assistance and report information is provided
to the DSP by E&I staff and other detailed NCUA staff.




                                                   7
The Executive Director chairs the NCUA Strategic Management Council (SMC) and its membership
consists of the six Regional Directors, President AMAC, and all Central Office Directors. The DSP
serves as the SMC facilitator and coordinator. The SMC meets every odd numbered month and
provides vital strategic oversight and input to the agency’s planning process. The Information
Technology Oversight Committee (ITOC) meets every even numbered month. The DSP chairs the
ITOC, which is composed of the Director OCIO, Director E&I, Director OHR, Director OCFO, two
Regional Directors and one Associate Regional Director. The ITOC provides strategic oversight of the
agency’s major information technology issues and as a result provides important information and input to
the planning process.

NCUA study groups comprised of a cross section of management and staff are used to developed
ideas for each of the five major goals. Input was also received from the Executive Director and NCUA
Board.

We found that offices, in particular the Office of Examination and Insurance (E&I), develop detailed
plans and action steps to assist in the accomplishment of Goal 1. E&I has taken the lead in providing
guidance and assistance to regional staff.

Semi-annual performance reports track performance throughout the plan year. Upon completion of the
plan year, the regions and offices prepare individual performance reports covering the actions in their
operating plans. OSPSP integrates this information along with the electronic data reports to develop the
NCUA Annual Performance Report. The report is fully coordinated with all regions and offices and
approved by the NCUAB. The analysis from this report is used in the development and/or update of
subsequent Annual Performance Plans completing the cycle.

In the NCUA Strategic Plan, the agency identified the proposed annual performance goals for the five-
year period. These initial annual performance goals represent the best estimate as to the objectives
necessary to achieve the longer-term output goals in NCUA Strategic Plan. These annual performance
goals are then updated and/or modified as required in the development of the NCUA Annual
Performance Plans. The update and/or modification is based on NCUAB guidance, budget
implications, and external environmental factors such as the recent economic volatility. The Final Annual
Performance Plan is developed in coordination with the agency budget for the planning year. Along the
way, OSPSP works with the NCUA assigned OMB auditor to ensure compliance with the latest OMB
directives and guidance.

Performance measures are currently communicated to the staff through distribution of the Final Annual
Performance Plan and the Annual Performance Report. The information contained within these
documents is further communicated throughout the field by Regional Directors and Supervisory
examiners as they work with staff in the accomplishment of the mission. In addition, the agency annually
discusses progress achieved at Region Management and Joint Management Meetings. The Office of
Strategic Program Support and Planning (OSPSP) recently completed a series of briefings and
discussions with the senior management of all six regions.


                                                 8
Agency guidelines for implementation of annual plans are included in NCUA Instruction 9501. The
Instruction’s purpose was to establish procedures for implementing the annual performance plan and
reporting on the progress of the plan. In addition, the Instruction identifies: Team Leaders to be
assigned for monitoring and reporting on plan progress; Strategy Team, Action Offices, Operating Plans
and responsibilities of each; and the reporting of progress through Monthly Management Report
updates and Quarterly Progress Reports.

NCUA Instruction 9501 is currently the only formal guidance for Results Act planning. It is currently
under rewrite because the Results Act planning has evolved beyond the point at which it was
developed and to apply lessons learned. For example, the current instruction calls for quarterly
performance reports. The performance reports are based on call report data, which is only fully
updated twice each year. The Director of Strategic Planning is now accomplishing these reports on a
semi-annual basis to better correspond with data availability. Additionally, reports are only sent
forward in the event there is the potential that goals would not be achieved.


CONCLUSION: NCUA expends significant staff resources to ensure that strategic planning is
performed in a meaningful way to meet the needs of credit unions, the future of the agency, and the
requirements of the Results Act. We found that all levels of NCUA management and staff are solicited
for strategic planning input and execution of the planning.

RECOMMENDATION: None.


                                   The Results Act (Section 4 – Annual Performance Plans and
 Annual Performance Plan
                                   Reports) requires the following to be addressed in the agency annual
                                   performance plan:
   •   Performance goals
   •   Goals in objective, quantifiable, and measurable form
   •   Operational processes
   •   Performance indicators
   •   Comparison of actual program results with the established performance goals
   •   Description of means used to verify and validate measured values


We reviewed the 2000, 2001, and 2002 NCUA Annual Performance Plans. We found that basically
the plans met all Results Act requirements for NCUA Strategic Goal 1.

Our review found that the last three annual performance plans were essentially identical and were in
agreement with the 2000-2005 NCUA Strategic Plan Goal 1. The matrix on the following pages shows
the specifics and comparisons of the three plans.



                                                 9
         2000 Performance Plan:                           2001 Performance Plan:                             2002 Performance Plan:
Goal 1.1: Ensure federally insured credit        Goal 1.1: Ensure federally insured credit          Goal 1.1: Ensure federally insured credit
unions are financially healthy.                  unions are financially healthy.                    unions are financially healthy.

Goal 1.1(a): Reduce the percentage of            Goal 1.1(a): Reduce the percentage of              Goal 1.1(a): Facilitate a reduction in the
federally insured credit unions with return on   federally insured credit unions with return on     percentage of federally insured credit unions
assets of less than 0.5% and net worth of less   assets (ROA) of less than 0.5% and net worth       with ROA of less than 0.5% and net worth of
than 6% to 1.28 percent of credit unions.        of less than 6% to 1.28 percent (credit unions     less than 6%.
                                                 chartered less than ten years are not included).
Measure: (% credit unions in category)                                                              Measure: % credit unions in category.
                                                 Measure: (% credit unions in category)
Target: (1.28%)                                  Target: (1.28%)                                    Target: 1.28%

Goal 1.1(b): Reduce the percentage of            Goal 1.1(b): Reduce the number of federally        Goal 1.1(b): Facilitate an increase in the total
federally insured credit unions with net worth   insured credit unions with net worth less than     capital in the corporate credit union system.
of less than 6% to 2.50% of federally insured    6.0 percent to 2.00 percent (credit unions
operating credit unions.                         chartered less than ten years are not included).
                                                                                                    Measure: % increase in total dollars
                                                 Measure: (% credit unions in category)             available.
Measure: (% of credit unions in category)
                                                 Target: (2.00%)                                    Target: 0.50%
Target: (2.50%)




                                                                     10
         2000 Performance Plan:                        2001 Performance Plan:                              2002 Performance Plan:
Goal 1.2: Ensure that credit union            Goal 1.2: Ensure that credit union                 Goal 1.2: Ensure credit union
management is aware of and prepared to        management is aware of and positioned to           management is aware of and is planning
meet potential financial challenges.          meet current and potential future financial        effectively to meet current and potential
                                              challenges.                                        future financial challenges.

Goal 1.2: Reduce the percentage of those      Goal 1.2(a): Reduce the percentage of those        Goal 1.2(a): Maintain an above average
federally insured credit unions that remain   federally insured credit unions that remain        score on credit union survey.
CAMEL code 3 for more than 36 months to       CAMEL code 3 for more than 36 months to
4% of operating federally insured credit      4% of operating federally insured credit unions.   Measure: Examiner’s ability to provide
unions.                                                                                          information on trends and issues.
                                              Measure: % of credit unions in category.
Measure: % of Credit Unions in category.                                                         Target: 4.6 out of 5 on questions #4 & #8
                                              Target: 4%
Target: 4%                                                                                       Goal 1.2(b): Reduce the percentage of those
                                              Goal 1.2(b): Maintain 75% of credit unions         federally insured credit unions that remain
                                              receiving a CAMEL management rating of 2 or        CAMEL code 3 for more than 36 months.
                                              better.
                                                                                                 Measure: % of Credit Unions in category.
                                              Measure: % of Credit Unions in category.
                                                                                                 Target: 4%
                                              Target: 75%




                                                                 11
         2000 Performance Plan:                           2001 Performance Plan:                             2002 Performance Plan:
Goal 1.3: Maintain the healthy                   Goal 1.3: Maintain the healthy                     Goal 1.3: Maintain the healthy
performance of the National Credit Union         performance of the National Credit Union           performance of the National Credit Union
Share Insurance Fund (NCUSIF).                   Share Insurance Fund (NCUSIF).                     Share Insurance Fund (NCUSIF).

Goal 1.3(a): Maintain the insurance loss ratio Goal 1.3(a): Maintain the insurance loss ratio       Goal 1.3(a): Maintain the insurance loss ratio
ten-year average below $0.30 per $1,000.       ten-year average below $0.30 per $1,000.             ten-year average below $0.30 per $1,000.

Measure: Insurance Fund loss ratio.              Measure: Insurance Fund loss ratio.                Measure: Insurance Fund loss ratio.

Target: $.0.30 per $1,000.                       Target: $.0.30 per $1,000.                         Target: $.0.30 per $1,000.

Goal 1.3(b): Maintain an equity ratio at or      Goal 1.3(b): Maintain NCUSIF equity ratio at
above 1.3%.                                      or above 1.30 percent.

Measure: (NCUSIF equity ratio)                   Measure: (NCUSIF equity ratio)

Target: (NCUSIF equity ratio 1.3%)               Target: (NCUSIF equity ratio 1.3%)

SUMMARY:
    Goal 1.1(a) – Same for 2000, 2001, and 2002
        Goal 1.1(b) – Target 2.5% for 2000, Target 2.0% for 2001, nothing for 2002
        Goal 1.1(b) – Target Increase CCU system capital .5% for 2002
        Goal 1.2 – Basically same for 2000, 2001, and 2002
        Goal 1.2 – Target 4% for 2000; same as Goal 1.2(a) for 2001; same as Goal 1.2(b) for 2002
        Goal 1.2(b) – Target CAMEL mgt. 2 or better 75% for 2001; nothing for 2000; nothing for 2002
        Goal 1.2(a) – Target 4.6 out of 5 on questions #4 & #5 for 2002; nothing for 2000; nothing for 2001
        Goal 1.3, Goal 1.3(a) – Maintain losses below $.30 per $1,000 and equity ratio of 1.3% same for 2000, 2001, and 2002.

RECOMMENDATION: None

                                                                     12
                      NCUA Instruction 9501, Section 9, requires operating plans for offices
    Operating Plans
                      responsible for carrying out the performance plan contributing to Results Act
goal accomplishment. The plans are to incorporate guidance and action steps for accomplishing plan
and team strategies.

E&I Operating Plans and Performance Reports
We obtained and reviewed the E&I 2000 and 2002 operating plans to determine how the operating
plans tie in with the agency strategic and annual plans. We also reviewed the 2000 and 2001 E&I
Annual Performance Reports.

We found the E&I operating plans addressed the required strategies, action steps, milestones,
responsible individuals and resources to be used for Goal 1 and all Outcome Goals 1.1, 1.2, and 1.3
where E&I had impact and the ability to affect the outcomes. The actions and plans enumerated by
E&I appeared reasonable within the control of E&I to attain goal 1. The 2000 E&I Annual
Performance Report indicated for the most part the 2000 plan’s action steps and goals were
accomplished. Uncompleted actions steps were progressing forward and were to be fully completed
during 2001. Data reported and projected indicated accomplishment of goals. The 2001 E&I Annual
Performance Report indicated action plans were met or if not met reasonable explanations were given
such as plan being preempted by changes being introduced for risk focused examination initiative.


Regional Operating Plans and Monitoring Reports
We obtained and reviewed a selected region’s 2000, 2001, and 2002 Operating Plans; and the same
region’s 2000, 2001 Annual Plan Performance Reports. We found that the Plans and Reports mirrored
the national guidance and Goal 1. The regional plans regarding strategies and action steps were much
more detailed, as they should be, since the regional staff are closest to action and interaction with credit
unions. The indicated greater detail is necessary in order to accomplish the goals. We found the plans
and reports to be reasonable. All six regions prepare annual operating plans following the national
guidance.

In addition, we noted the region was preparing and utilizing several locally generated reports to monitor
progress of credit unions and the region in accomplishing Goal 1, including:

•    Risk Analysis of FICUs with NWR <10% (Run from the national database semi-annually)
     The Risk Analysis report prepared by the region tracks credit union trend information for a 5 year
     period at year end for each FICU with a Net Worth Ratio (NWR) less than 10 percent. The region
     uses the report in analyzing credit union progress in key areas. The report listed CAMEL code,
     Assets, Net Worth, Net Worth Ratio, Loans, Loans Growth, Shares, Shares Growth, Net Income,
     Return on Assets, Delinquent Loans, Delinquency Ratio, Operating Expense to Average Assets
     ratio, and Loan Charge Off ratio.


                                                  13
    From the Risk Analysis report the Division of Supervision selects credit unions for a Select Risk
    Review by the division.

•   Regional Progress Report (Prepared monthly)
    The monthly Regional Progress Report with numerous FICU data tracks all regions’ and national
    progress for credit unions. The report is prepared by E&I and used by the region for comparison
    purposes.

•   Region Monthly Status Report (Prepared monthly)
    The region prepares the regional “Monthly Status Report” for regional SEs, regional senior
    management, E&I, Executive Director, and General Counsel. The report provides information on
    regional activity including sections entitled: Regional Summary (time summaries by SE group and
    region); CAMEL 4 & 5s (additions and deletions, duration of CAMEL 4 or 5 status); General
    Information (outstanding Letters of Understanding and Agreement by SE Group, outstanding SIAs
    by SE Group, credit unions with a Net Worth of <7%, Prohibition Actions status, Duration of
    CAMEL 3 Status, CAMEL 3 Last Contact >210 Days Report, and Last Contact >24 Months
    report); Potential DOI Actions (Potential DOI Acts Worksheet – potential consolidations and
    liquidations); Consolidations & Liquidations in Progress (Consolidations and Liquidations in Process
    Worksheet); Consolidations & Liquidations Completed CY 02 (Consolidations and Liquidations
    Completed Year-To-Date); Loan Guarantees and CLF Lines of Credit (CLF Line of Credit
    Outstanding, Loan Guarantees Outstanding, Bond Claims Log); and Insured Shares, Reserve
    Recommendations (Reserve Recommendations for Operating Credit Unions, Insured Shares,
    Insured Shares Graph).


CONCLUSIONS: We found that the operating plans for E&I and the selected region met the
requirements set by the NCUA guidance. However, we did find that the only formal guidance available
for strategic planning, NCUA Instruction 9501, is out of date and does not address all of current agency
practices. It is our understanding that the Instruction is under revision to meet current conditions and
practices.

RECOMMENDATION 1: NCUA should continue with its plans to review guidance for Results Act
planning including NCUA Instruction 9501, and develop or revise current guidance to complement
plans and proposed monitoring and progress reporting.

Comments from Office of Executive Director:
As you correctly noted in your report, OSPSP (Office of Strategic Program Support and Planning) is
currently rewriting NCUA Instruction 9501 and recently completed the first phase of the update.
Calendars for all GPRA planning documents were placed in the public folders for access by the
entire agency. The calendars will be updated annually or sooner if required and will be included
as attachments to the updated Instruction 9501.


                                                 14
                                                Natural person credit unions at least semi-annually report
  NCUA Progress in Meeting Goals
                                                their financial status to NCUA using call reports (form
5300). Starting with the third quarter 2002, all federally insured credit unions will submit quarterly
reports to NCUA.
For Goal 1 (Promote a system of financially sound, well-managed federally insured credit unions able to
withstand economic volatility), including Outcome Goals 1.1 and 1.2, we obtained and reviewed the
semi-annual data reports generated from the NCUA database for 2000 and 2001 by the Office of
Examination and Insurance. We found that the agency met and reported the outcome goals for 1.1 and
1.2 as supported by the following data:


                        June 30, 2000 Data Report Results

            Outcome Goal 1.1(a) Reduce the percentage of FICUs with return
            on assets of less than 0.5% and net worth of less than 6%
                    Goal                   Results                   Goal
                   1.28%                   0.77%                     Met


            Outcome Goal 1.1(b) Reduce the percentage of federally insured
            credit unions with net worth of less than 6%
                    Goal                   Results                   Goal
                   2.50%                   2.15%                     Met


            Outcome Goal 1.2 Reduce the percentage of those FICUs that
            remain CAMEL 3 for more than 36 months
                   Goal                Results                 Goal
                    4%                  4.3%                  Not Met


                        December 31, 2000 Data Report Results

            Outcome Goal 1.1(a) Reduce the percentage of FICUs with return
            on assets of less than 0.5% and net worth of less than 6%
                    Goal                  Results                   Goal
                   1.28%                   0.73%                    Met




                                                 15
Outcome Goal 1.1(b) Reduce the percentage of federally insured
credit unions with net worth of less than 6%
       Goal                 Results                  Goal
      2.50%                 1.54%                    Met


Outcome Goal 1.2 Reduce the percentage of those FICUs that
remain CAMEL 3 for more than 36 months
       Goal               Results                  Goal
        4%                 3.63%                   Met

           June 30, 2001 Data Report Results

Outcome Goal 1.1(a) Reduce the percentage of FICUs with return
on assets of less than 0.5% and net worth of less than 6%
       Goal                 Results                  Goal
      1.28%                 0.66%                    Met


Outcome Goal 1.1(b) Reduce the percentage of federally insured
credit unions with net worth of less than 6%
       Goal                 Results                  Goal
      2.00%                 1.61%                    Met

Outcome Goal 1.2(a) Reduce the percentage of those FICUs that
remain CAMEL 3 for more than 36 months
       Goal                 Results                  Goal
       4%                   3.42%                    Met


Outcome Goal 1.2(b) Maintain 75% credit unions receiving a
CAMEL management rating of 2 or better
       Goal                 Results                  Goal
       75%                  76.27%                   Met

           December 31, 2001 Data Report Results

Outcome Goal 1.1(a) Reduce the percentage of FICUs with return
on assets of less than 0.5% and net worth of less than 6%
       Goal                 Results                  Goal
      1.28%                 0.72%                    Met


                                   16
           Outcome Goal 1.1(b) Reduce the percentage of federally insured
           credit unions with net worth of less than 6%
                   Goal                 Results                  Goal
                  2.00%                 1.47%                    Met




           Outcome Goal 1.2(a) Reduce the percentage of those FICUs that
           remain CAMEL 3 for more than 36 months
                   Goal                 Results                  Goal
                   4%                   3.54%                    Met

           Outcome Goal 1.2(b) Maintain 75% credit unions receiving a
           CAMEL management rating of 2 or better
                   Goal                 Results                  Goal
                   75%                  75.84%                   Met

For Goal 1 we obtained and reviewed the annual information for 2000 and 2001 supplied by the Office
of the Chief Financial Officer (OCFO) for Outcome Goal 1.3 (Maintain the healthy performance of the
National Credit Union Share Insurance Fund). We found that the agency reported and met the
outcome goals for 1.3 as supported by the following data:


                     December 31, 2000 and 2001 Data from OCFO

           Outcome Goal 1.3(a) Maintain the insurance loss ratio ten-year
           average below $0.30 per $1,000
                  Goal                 Results                   Goal
            $0.30 per $1,000        Less than $0.30              Met
                                      per $1,000

           Outcome Goal 1.3(b) Maintain an equity ratio at or above 1.3%
                 Goal                  Results
           Equity Ratio 1.3%       1.3% for 12/31/00         Goal Met
                                  1.25% for 12/31/01        Goal Not Met




                                              17
CONCLUSIONS:
We reviewed the numbers and compared the report results for 2000 and 2001 to the numbers from the
Office of Examination and Insurance and the Office of Chief Financial Officer for the report periods and
provided to the Office Strategic Planning. We found the data in agreement with the results reported to
the NCUA Board.




RECOMMENDATION 2: To recognize more current possible loss conditions for the NCUSIF
equity ratio, NCUA should consider a five-year loss rolling average as a measurement, perhaps using
the last ten years loss ratio as the baseline. This would have the effect of recognizing current conditions
in a more timely manner. Also, the NCUSIF has had very few credit union losses in recent years as
evidenced by the 1.3 percent equity ratio. NCUA should consider loss payouts as an additional
measurement since current reserving practices may not disclose current conditions.

Comments from Office of Executive Director:
As indicated by E&I (Office of Examination and Insurance), our process already does this.
Additional comments provided by the Director of E&I included: I agree with this recommendation,
… The monthly reserve needs analysis considering moving 3, 5, and 10 year averages and looks
at net charges in addition to losses.

Additional comments provided by the Chief Financial Officer included:
The Fund’s (National Credit Union Share Insurance Fund) reserve needs are presently based upon
an ongoing analysis, which considers three factors – (1) specific problem credit union needs, (2)
historical loss experience, and (3) economic outlook/trend analysis for current and out years.
The 2nd factor, historical loss experience, is based upon a three-year to ten-year range of losses.
Since the Fund’s losses have been minimal beginning in the mid 1990’s and almost non-existent
for the past several years, using a five year loss rolling average as recommended would require a
lower reserve balance than is currently recorded. When the third component of the analysis
process is applied (economic outlook and trend analysis), I believe that the present procedure is
more than adequate since current and projected economic conditions are recognized.

I also disagree that loss/share payout data be used as an additional measurement to determine
reserve needs. Loss payouts alone would result in a much higher reserve requirement. The
present process of netting payouts against recoveries (bond claims, sale of assets, etc.) is a more
valid measurement of loss. While the loss/share payout amount for a failed credit union may be
considerable, the actual loss to the NCUSIF will be reduced as a result of the dissolution of
assets acquired. Basing reserve needs on loss/share payouts alone could overstate the Fund’s
reserve need significantly.


                                                The Results Act, Section 4, requires that Federal
  2000 Performance Report to OMB
                                                agencies report their progress in meeting goals to the

                                                  18
President and Congress each year. We obtained and reviewed a copy of the 2000 report to the Office
of Management and Budget. At the time of our review, the 2001 report was in process. According to
the Results Act, as applicable to NCUA, the report should include the following information: (Our
evaluation of NCUA’s 2000 report is printed in italics.)
•   Performance indicators along with the actual program performance achieved compared with the
    performance goals expressed in the plan for that fiscal year. We found the 2000 report included
    this information.

•   Review the success of achieving the performance goals of the fiscal year. We found the 2000
    report included this information.

•   Evaluate the performance plan for the current fiscal year relative to the performance achieved
    toward the performance goals in the fiscal year covered by the report. We found the 2000 report
    included this information.

•   Explain and describe, where a performance goal has not been met (including when a program
    activity’s performance is determined not to have met the criteria of a successful program activity
    under section 1115(b)(1)(A)(ii) or a corresponding level of achievement if another alternative form
    is used). This part was not applicable in 2000 because all parts of Goal 1 were met and
    reported.

•   Include the summary findings of those program evaluations completed during the fiscal year covered
    by the report. We found the 2000 report included this information.
•   The functions and activities of this section shall be considered to be inherently governmental
    functions. The drafting of program performance reports under this section shall be performed only
    by government employees. NCUA staff drafted the report.

The examination reports and call reports provide measurable results in support of goals and plans for
natural person credit unions.

The Office of Strategic Planning (OSP) prepared the 2000 NCUA performance report to OMB. E&I
staff members gathered information from reports; and regions provided comments on numbers and
whether strategy was working and provided revisions to strategy. In preparing the annual report, the
OSP incorporated information from progress reports; comments received from team leaders; and other
pertinent information. Central and regional offices had an opportunity to comment and provide input to
the draft report.

CONCLUSIONS: The 2000 NCUA Performance Report submitted to the Office of Management
and Budget included the required information specified in the Results Act.

RECOMMENDATIONS: None.




                                                 19
   CALL REPORT PROCESS – NATURAL PERSON CREDIT UNIONS


                                                                Goal performance measurements utilizing
Natural Person Credit Union Call Report (5300
report)                                                         call reports (5300 report) for natural
person credit unions were developed because the agency can obtain the information periodically and the
information and the reports provide the most complete and reliable database for NCUA. Also, call
reports provide consistent information on all federally insured credit unions (FICUs) twice a year. The
reports track performance quantitatively toward the stated outcomes in a meaningful way. A narrative
description of the call report process is presented below.

Through the assigned quarterly 5300 call report system as designed by the central office with input from
the regions including: field examiners track 5300 input; central office looks at information for
consistency; and regions prepare reports and analyze the information and report on achievement of
goals as well as factors involved in goal achievement. Regional analyst reviews information supplied by
NCUA database and prepares the quarterly reports sent to the central office.

Regional analyst prepared quarterly progress reports for 2000, and March and December 2001. The
region did not prepare quarterly progress reports for June and September 2001. The June and
September 2001 report the central office using the central NCUA database used by the region
prepared information. The analyst spends approximately 2 days, plus assistance from DOI, during each
quarter to prepare the update report.

All credit unions provide call reports at least semi-annually. Credit unions with assets >$50 million
provide quarterly reports. The call reports are used by the agency to report progress on strategic and
performance plan goals. Call reports are also used by NCUA managers for data information and for
use in revising goal strategies.

The process to obtain credit union reports is the responsibility of the Office of Examination and
Insurance (E&I). Each examiner has approximately ten assigned credit unions. Examiners are familiar
with their assigned credit unions. During the call report process, examiners obtain the reports from
assigned credit unions and review the reports for correctness and reasonableness. Accordingly, most
controls are at the regional office level. Some State Supervisory Authorities receive call report
information from federally insured stated chartered credit unions and upload the reports directly to the
NCUA database.

To ensure reliable data is available to assess performance measures, without bias, exaggeration or
errors, E&I and regional offices test and perform queries after the call reports are uploaded to the
database.

Regional examiners are required to be familiar with the financial condition of their assigned credit unions.
Examiners review the call report information for their assigned credit unions for security, consistency,

                                                  20
and accuracy prior to their uploading the information to the NCUA database. In addition, when
examiners perform examinations at their assigned credit unions they verify call report information and
review internal controls, determine security, consistency and accuracy of information reported by the
credit union. This information is documented in the examination work papers. When the region
prepares performance reports, detailed examiners to the regional office are utilized to independently
review the information for consistency and accuracy.

Call reports are prepared by credit unions and reviewed by examiners and analyzed by central office
and regional staff. Examinations and supervision contacts performed by examiners and reviewed as
appropriate by other staff provide an opportunity to collect and review data.

All federally insured credit unions will begin submitting quarterly call reports beginning with the third
quarter 2002. Credit unions with assets less than $10 million can use a short or abbreviated form, while
credit unions with assets larger than $10 million will be required to submit the current quarterly call
report form.

Call report information can be reported electronically or on a manually prepared hard copy form. In
excess of ninety-six percent of federally insured credit unions are reporting electronically call report
information.

During the call report cycle, the examiners review data prior to uploading it to the NCUA database.
Also, during examinations examiners verify and validate the call report and other information. During
code 26 (insurance reviews) examiners have a chance to verify and validate the call report information.

As of June 30th and December 31st, 2001, regional DOS prepared an analysis of information from
database for credit unions with capital less than 10 percent. The report was run recently this year. The
analysis emphasis is on adverse trends and declining capital. Examiners can use the regional office
capital trends analysis during their work with credit unions.

The call report information is entered into the NCUA database by the examiners in accordance with
guidance and a time frame schedule. Examiner average time allowed is 2 hours per credit union per call
report cycle, with 1 hour for data input and 1 hour for analysis. After the information is entered in the
NCUA database and some analysis is performed by the central office (E&I), the region verifies
information regarding CAMEL code credit unions and other performance measures for the goals. (See
Attachment 1 for a flow chart of the call report process.)

CONCLUSIONS: NCUA is receiving and using call report information from federally insured credit
unions (FICUs) in a consistent manner for planning and monitoring purposes. When the quarterly
reporting takes effect for the third quarter 2002, the agency will receive more timely information from all
FICUs which will assist the agency in providing better service to credit unions. The agency will also be
able to adjust planning as needed in a timelier manner. To improve the process, consideration should be
given to the following recommendations suggested by regional staff during our review.


                                                  21
Regional analysts spend approximately two days per quarter preparing the quarterly progress reports.
In 2001, one regional office indicated that the central office had prepared the data (numbers) parts of
two quarterly progress reports from the agency database normally used by the region. This work has
been and can be prepared in the central office thereby relieving time spent in each of the six regions.


RECOMMENDATION 3: NCUA should consider automating the call report process with the credit
unions inputting their reports to the agency database. Examiners could then monitor the completion just
like agency analysts can do now. Examiners could also download the reports and check for errors and
erratic trends for their assigned credit unions. This process would eliminate the need for the examiner to
upload the credit union call reports. It is our understanding that this is also how FDIC processes their
call reports.

Comments from Office of Executive Director:
E&I and OCIO (Office of the Chief Information Officer) are currently developing the concept of
fully automating the call report process and providing a vehicle for credit unions to submit their
call reports via the Internet. We will shortly issue a Letter to Credit Unions on this subject.
Having credit unions submit their data directly into the agency database without the provision
for validation is currently not feasible. We plan to have credit unions submit their data directly
into an agency server where NCUA examiners and SSAs (State Supervisory Authorities) will
review it prior to its flow to the database. We will, of course as always, continue to study ways
to enhance and improve our data collection methods and investigate ways to provide automated
analysis. However, the examiner and SSAs will always remain as an integral part of this process.


RECOMMENDATION 4: Consideration should be given to having E&I prepare the data (numbers)
part of the quarterly progress report for each region with the region preparing the analysis part of the
progress report after the data has been prepared by the central office.

Comments from Office of Executive Director:
E&I could compile the regional progress numbers for each region as we do with the national
numbers and we will consider implementing this change. Since the regions will have to analyze
the data to determine the causes of any variances, the benefit of this change may be negligible.




                                                 22
ATTACHMENT 1 – CALL REPORT PROCESS (Natural Person Credit Unions)

                                                     (1)
                                          5300 Forms available on
                                           diskette/paper finalized
                                             by E&I and sent to
                                          FICUs by OCIO and OA



                                           FICUs receive diskette/                           (2)
                                           paper 5300 forms from             RO effort is to ensure forms are
                                            CO or reordered from             available and completed and
                                                    RO                       uploaded in timely manner to
                                                                             meet deadlines



           (4)
       FICU uses                                                                                                FICU uses
       computer       FICU 5300                       (3)                         FICU 5300                     5300
      5300 info. to   data from              FICU decides to use                  data from                     information
         update       computer              diskette or paper form                manual                        to manually
      diskette and    system                 (+90% use diskette)                  system                        prepare
       submits to                                                                                               5300 form
        examiner




                                                      (5)
                              Examiners receive 5300s credit unions, review for
                                                                                                                  (4)
                              reasonableness and accuracy, and upload to
                                                                                                          Completed paper
                              NCUA system via e-mail. Examiners can use a
                                                                                                          5300 and submit to
                              cycle to cycle comparison software tool to test
                                                                                                          examiner
                              information for reasonableness. Hardcopy 5300s
                              require manual input by examiner to system.



                                                        (6)
                            Internal software critical edits prevent uploads of
                            5300s to NCUA system. Critical edit items must be
       Some SSAs                                                                                             Some SSAs
                            corrected prior to upload by examiner. Corrections are
     perform FISCU                                                                                          perform FISCU
                            communicated to credit union.
       review and                                                                                             review and
                                                        (7)
     upload to NCUA                                                                                         upload to NCUA
                            Warning edits produce warnings that alert credit union
       data base.                                                                                             data base.
                            and examiner to possible problems. Examiners may
                            resolve any questions or issues with the credit union
                            prior to uploading the 5300.




                                                       (8)
                             Accepted uploaded data to NCUA central database
                             is reviewed by E&I data analysis officer. Items
                             which appear unreasonable or inaccurate are
                             returned to the region for correction. The data may
                             only be changed by an authorized examiner or other
                             specified personnel. The data analysis officer may
                             not change the data submitted by the credit unions.


                                                       (9)
                                         After data has been
                                         corrected, OCIO and E&I
                                         prepare Combined
                                         Balance Sheet reports for
                                         all credit unions and notify
                                         regions of availablility of
                                         data to prepare Risk
                                         Management Reports.




                                                       23
